U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

February 12, 2021

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

McCoy v. United States
S. Ct. No. 20-886

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 30,
2020. The government’s response is now due, after one extension, on March 5, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 5, 2021 within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-0886
MCCOY, THELMA G.
UNITED STATES OF AMERICA

KELSI BROWN CORKRAN
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, N.W.
WASHINGTON, DC 20005
202-339-8400
KCORKRAN@ORRICK.COM

